The U.S. International Trade Commission is an independent, nonpartisan, quasi-judicial federal agency
that provides trade expertise to both the legislative and executive branches of government, determines the
impact of imports on U.S. industries, and directs actions against certain unfair trade practices, such as
patent, trademark, and copyright infringement. USITC analysts and economists investigate and publish
reports on U.S. industries and the global trends that affect them. The agency also maintains and publishes
the Harmonized Tariff Schedule of the United States.




                                             Commissioners
                                        Irving A. Williamson, Chairman
                                        Daniel R. Pearson
                                        Shara L. Aranoff
                                        Dean A. Pinkert
                                        David S. Johanson
                                        Meredith M. Broadbent
OFFICE OF INSPECTOR GENERAL




         UNITED STATES INTERNATIONAL TRADE COMMISSION

                                     WASHINGTON, DC 20436


March 20, 2013                                                                OIG-LL-003


Chairman Williamson:

This memorandum transmits the Office of Inspector General’s final report, Evaluation of the
Purchase Card Program, OIG-ER-13-08. This evaluation focused on whether the Commission
was effectively achieving the goals of the purchase card program, by reducing the administrative
costs and time for procuring items and ensuring effective controls are in place to mitigate the risk
of fraud, misuse, and delinquency. In finalizing this report, we analyzed management’s
comments to our draft report and have included those comments in their entirety as Appendix A.

The evaluation confirmed the Commission has been achieving the goals of the purchase card
program, and identified two areas for improvement. This report contains six recommendations
to address the improvement areas. In the next 30 days, please provide me with your management
decisions describing the specific actions that you will take to implement each recommendation.

Thank you for the courtesies extended to the evaluators during this review.




Philip M. Heneghan
Inspector General
                         U.S. International Trade Commission
                                         Evaluation Report



                                       Table of Contents

Results of Evaluation .................................................................................... 1

Improvement Areas and Recommendations.............................................. 2
   Improvement Area 1: Monitoring the Effectiveness of the Purchase Card Program .... 2

   Improvement Area 2: Improving the Classification of Purchase Card Obligations ...... 4

Management Comments and Our Analysis ............................................... 5

Objective, Scope, and Methodology ............................................................ 6

Appendix A: Management Comments on Draft Report......................... A




                                                     i
                     U.S. International Trade Commission
                                  Evaluation Report


                              Results of Evaluation
The objective of this evaluation was to answer the following question:

       Is the Commission’s purchase card program effective?

Yes, the Commission’s purchase card program is effective.

For the purpose of this evaluation, “effective” was defined as achieving the desired goals
of the government purchase card program. The Office of Management and Budget,
Circular A-123, Appendix B, Improving the Management of Government Charge Card
Programs, (Circular A-123) provides government-wide charge card program
requirements. Government-wide goals are to reduce administrative costs and time for
purchasing and paying for goods and services; ensuring effective controls are in place to
mitigate the risk of fraud, misuse, and delinquency; by maximizing refunds where
appropriate and using government charge card data to monitor policy compliance and
inform management decision-making.

During our review of the Commission’s purchase card program we found:

   x   The policies and procedures were consistent with government-wide guidance;
   x   The process included segregation of duties between purchase cardholder,
       approver, and billing office;
   x   Training was required before a purchase card was issued;
   x   Purchase cardholders were issued appointment letters;
   x   Purchase cardholders were issued single and monthly purchase limits;
   x   Cardholders maintained documentation that supported the items and services
       purchased; and
   x   Cardholders agreed having the purchase card reduced administrative costs and
       time for purchasing for small, low-cost items under the micro-purchase threshold.

While we found the Commission’s purchase card program to be effective, we did identify
two areas for improvement: 1) increase monitoring and oversight of the purchase card
program and 2) properly classifying purchase card transactions. Each of these areas for
improvement are described in detail in the report.




OIG-ER-13-08                                1
                     U.S. International Trade Commission
                                  Evaluation Report


              Improvement Areas and Recommendations

                                Improvement Area 1:
             Monitoring the Effectiveness of the Purchase Card Program


Circular A-123 states, “agencies have an ongoing requirement to evaluate the
effectiveness of the actions taken to comply with the requirements of this guidance.” We
reviewed the Commission’s policies, procedures, and practices and found that the
Commission had instituted policies and procedures consistent with the guidance, but
monitoring compliance of the procedures was minimal, and monitoring the effectiveness
of the procedures was not evident.

For example, many cardholders interviewed described practices where they had changed
their internal processes to provide a quicker turnaround time for staff. Some examples
included obtaining an e-mail approval for a purchase instead of an actual signature; using
an e-mail from the requestor instead of completing forms; and having delegated authority
from the approving official to procure certain items within certain dollar thresholds.
These practices minimized administrative costs and time for acquiring items with the
purchase card, however they were inconsistent with the procedures outlined in the
Commission’s Financial Accounting Manual. The Office of Procurement has performed
periodic internal reviews of purchase cardholder records, but they did not assess
compliance with procedures or the effectiveness of purchase card policies.

Circular A-123 states that the charge card manager should establish and maintain “master
file/official cardholder records, including training, appointment, single and monthly
purchase limits, and related records.” The Office of Procurement maintains an excel
spreadsheet that contains all of data elements required in Circular A-123, however, they
lacked source documentation to support the data. In addition, the spreadsheet identified
seven purchase cardholders that had not met the 3-year refresher training requirement, yet
no action had been taken prior to this evaluation to contact the cardholders or suspend
their purchase authority.

Circular A-123 directs agencies to maximize benefits to the Federal Government when
using government charge cards, and maximizing refunds where appropriate. The
purchase card vendor provides refunds based on volume of spending and frequency of
payment. We were told that the Commission has been processing invoices on a daily
basis simply because the formula offers the highest amount of quarterly rebates, without
regard to any overhead costs associated with daily processing. Additionally, there had




OIG-ER-13-08                                2
                     U.S. International Trade Commission
                                  Evaluation Report

not been any analysis of spend volume to determine whether there were any opportunities
for the Commission to obtain higher rebates for increased use of the purchase card. Since
the Commission has not performed any reviews of spend volume or invoice payment
options, they do not know if they are maximizing refunds.

The charge card vendor has been collecting purchase card data, and reporting to the
Office of Management and Budget on behalf of the Commission. The reports provide
information such as, the number of purchase cardholders, number of transactions per
month, dollar value of transaction per month, year to date information, fiscal year
comparisons, and even percentage of change over time.

We found that the Commission had not requested to receive this information. As a result,
the Commission lost opportunities to use the data as a risk management tool to identify
any unexpected trends or changes of purchase card use.

Maintaining proper records, monitoring the effectiveness of policies and procedures, and
reviewing performance data are effective tools for minimizing risks for abuse, increasing
efficiencies in processes, and strengthening the overall management of the purchase card
program.

Recommendation 1: The Office of Procurement develop master file/official cardholder
records that include at a minimum: training records to confirm that all purchase card
holders are up to date on their training, appointment letters for each card holder, and
purchase limits.

Recommendation 2:     The Office of Procurement review the current purchase card
policies and procedures to determine if changes should be made to improve the efficiency
of the purchase card program.

Recommendation 3: The Chief Financial Officer request to be added to the distribution
list to obtain the Commission’s monthly performance metrics.


Recommendation 4: The Chief Financial Officer perform a cost analysis of spend
volume and invoice payment options.




OIG-ER-13-08                                3
                     U.S. International Trade Commission
                                  Evaluation Report




                               Improvement Area 2:
             Improving the Classification of Purchase Card Obligations



The Office of Management and Budget Circular A-11, Preparation and Submission of
Budget Estimates, (Circular A-11) requires agencies to report obligations and
expenditures by object class.

As part of this evaluation, we compared three sets of purchase card data (card holder
documentation, purchase card log entries, and data generated from the oracle financial
system) for consistency. We did not find significant differences between these three data
sets. However, we did notice that a significant number of transactions were not being
classified or recorded to the proper object classification code.

We found three underlying reasons for the misclassifications:

   x   USITC guidance for classifying items was not being properly followed;
   x   The process for validating the object class code for purchase card obligations was
       not effective; and
   x   USITC guidance for classifying purchases was not consistent with Circular A-11.

We found several instances where the purchase cardholder used the incorrect budget
code. This error was not noticed during the repost process, where the code was supposed
to be validated. During the repost process, the Office of Finance uses Purchase Card
Log, which contains information entered by the purchase card holder, to verify the
organization code and object class code. However, the purchase card log is not designed
to collect the appropriate level of information to properly perform this task.

We were also informed that training requests were handled differently, and while the
purchase card log was updated with some data, it was not used to assign an organization
code or an object class code. All training requests were entered into an Access database
by the Procurement Assistant. The database is used by the Office of Finance to manually
obligate the training in the financial system.




OIG-ER-13-08                                4
                     U.S. International Trade Commission
                                     Evaluation Report

Circular A-11, section 83.10 provides guidance on classifying obligations for education
and training. The table below shows these differences between the two sets of guidance:

        If the Obligation is for….        Circular A-11      USITC Object Class
                                          Object Class
    Payments of tuition to                                 Not separately identified
                                                 25.2
    universities or colleges                                     in guidance.
    Payment to all other private
    sector company for training                  25.1                25.2
    courses
    Payments to other Federal
    government agencies for                      25.3                25.3
    training courses.

We reviewed purchase card transactions for the month of February. We found 29 out of
115 transactions used the incorrect object class code. Training accounted for 89% of the
transactions misclassified, where we found code 25.2 was regularly used, regardless of
whether the payment was made to a university, a private company, or other Federal
agency.

Recommendation 5: The Commission update the Financial Management Codes manual
to align the object class codes and descriptions with Circular A-11.

Recommendation 6: The Commission update the process to collect the appropriate
amount of information required to validate the object class code.



              Management Comments and Our Analysis
On March 8, 2013, Chairman Irving A. Williamson provided management comments to
the draft evaluation report. The Chairman agreed with the findings of our evaluation and
that there are two areas where improvements can be made.




OIG-ER-13-08                                 5
                      U.S. International Trade Commission
                                   Evaluation Report


                    Objective, Scope, and Methodology
Objective:
   x   Is the Commission’s purchase card program effective?

Scope:
For purposes of this evaluation, the term effective was defined as achieving the desired
goals of the purchase card program by reducing administrative costs and time for
procuring items and ensuring effective controls are in place to mitigate the risk of fraud,
misuse, and delinquency.

   x   Purchase card program management: policies and procedures; key officials;
       appointment letters; purchase limits; training; separation of duties; maintenance of
       master files; oversight and monitoring;
   x   Included all active purchase card holders; and
   x   Purchase card transactions between October 1, 2011 and April 30, 2012.

Scope Limitations: Did not include convenience checks, property management, payment
delinquency, split-purchases, strategic sourcing, credit worthiness, environmental
requirements, 508 requirements, or state and local tax recovery efforts.

Methodology:
   x   Reviewed applicable laws, regulations, and guidance for government purchase
       card programs;
   x   Reviewed Commission policies, procedures, and related documents;
   x   Interviewed Commission purchase cardholders and other staff involved in
       purchase card process;
   x   Reviewed master/official purchase card files;
   x   Reviewed all purchase cardholder documentation for February 2012 transactions;
   x   Reviewed entries in the purchase card log;
   x   Reviewed cardholder history reports from oracle;
   x   Reviewed Commission rebate information;
   x   Reviewed Commission performance metric reports; and
   x   Analyzed data.




OIG-ER-13-08                                 6
               U.S. International Trade Commission
                        Evaluation Report


    Appendix A: Management Comments on Draft Report




OIG-ER-13-08                   A
“Thacher’s Calculating Instrument” developed by Edwin Thacher in the late 1870s. It is a cylindrical, rotating slide
rule able to quickly perform complex mathematical calculations involving roots and powers quickly. The instrument
was used by architects, engineers, and actuaries as a measuring device.
